Department of Homeland Security
   Ofﬁce of Inspector General

   Audit of the Department of Homeland Security's 

 Handling of Conference Fees for the Process Control 

                   Systems Forum
 





OIG-10-104                                    July 2010
                                                         Office ofInspector General

                                                         U.S. Department of Homeland Security
                                                         Washington, DC 20528




                                                        Homeland
                                                        Security

                                 JUL 2 7 2010
MEMORANDUM FOR:	             The Honorable Rand Beers
                             Under Secretary
                             National Protection and Programs Directorate

                             The Honorable Dr. Tara O'Toole
                             Under Secretary
                             Science and Technology Directorate
                            ~./~_--£ cJ: ~
                            -~[cnaf(rL. Skinner
                                             0


FROM:
                             Inspector General

SUBJECT:	                     Final Letter Report: Audit of the Department ofHomeland
                              Security's Handling of Conference Fees for the Process
                              Control Systems Forum (PCSF)

We audited the Department of Homeland Security's (DHS) Handling of Conference Fees
for the Process Control Systems Forum in fiscal years 2005 to 2007. Our objective was
to determine whether a violation of the Miscellaneous Receipts Statute (31 U.S.C. §
3302) or the Anti-Deficiency Act (31 U.S.c. §§ 1341 and 1517(a» occurred from the
receipt of conference registration fees.

DHS violated the Miscellaneous Receipts Statute by improperly augmenting its
appropriations with the conference fees collected in fiscal years 2005 to 2007 and not
remitting those fees to the U.S. Treasury general fund as required. However, DHS did
not violate the Anti-Deficiency Act because appropriated funds available from the years in
question are sufficient to cover DHS' remittance of the conference fees to the U.S.
Treasury Account.

This report contains one recommendation. Your office concurred with the
recommendation and has taken action to resolve the recommendation. We consider the
recommendation resolved and open and will close it when implementation is complete.

Consistent with our responsibility under the Inspector General Act of1978, as amended,
we are providing copies of our report to appropriate congressional committees with
oversight and appropriation responsibility over the Department of Homeland Security.
The report will be posted on our website.
oversight and appropriation responsibility over the Department of Homeland Security.
The report will be posted on our website.

Should you have any questions, please call me, or your staff may contact Anne L.
Richards, Assistant Inspector General for Audits, at (202) 254-4100.
Background
As part of DHS’ Science and Technology Directorate, the Homeland Security Advanced
Research Projects Agency has an essential role in engaging the private sector, the
academic community, and others in innovative technology design, rapid prototyping,
prototype systems engineering, and development of new homeland security technologies.
During August 2004, the Homeland Security Advanced Research Projects Agency
requested support for the creation and management of a Process Control Systems Forum
(PCSF) to address problems with security and reliability in process control systems and
supervisory control/data acquisition. The Science and Technology Directorate awarded a
contract to a private contractor on October 13, 2004.

The original contract, covering 1 year with 2 additional option years, was awarded under
an interagency agreement with the Department of Interior for management of the annual
Forums for FYs 2005 through 2007. On June 27, 2006, a modification to the contract
transferred Forum responsibility to the National Protection and Program Directorate
(NPPD). Nonetheless, PCSF funding continued to be provided from Science and
Technology’s appropriation for Research, Development, Acquisition, and Operations.

In 2008, the NPPD Director of Budget and Financial Services raised concerns that
conference fees were being inappropriately collected for the PCSF that fiscal year and
canceled DHS’ sponsorship. On August 27, 2008, the Director notified the DHS Chief
Financial Officer of a potential Anti-Deficiency Act violation related to conference fees
previously collected for the PCSF in FYs 2005 to 2007. The Anti-Deficiency Act (31
U.S.C. § 1341 and 31 U.S.C. § 1517 (a)) prohibits a government officer or employee
from making or authorizing an expenditure from, or creating or authorizing an obligation
under, any appropriation or fund in excess of the amount available in the appropriation or
fund unless authorized by law. Additionally, the Miscellaneous Receipts Statute (31
U.S.C. § 3302(b)) requires all funds received for the government from any source to be
deposited into the miscellaneous receipts account of the U.S. Treasury without deduction
for any charge or claim if the retention of the money is not authorized or exceeds
authorized levels.

The Office of the Chief Financial Officer performed a preliminary investigation and on
November 25, 2008, referred the matter to the Office of Inspector General for review.
We performed our audit to determine whether the department violated the Miscellaneous
Receipts Statute (31 U.S.C. § 3302) or the Anti-Deficiency Act by collecting conference
registration fees for the Process Control Systems Forum in FYs 2005 to 2007.

Results of Audit
DHS violated the Miscellaneous Receipts Statute by improperly augmenting its
appropriations with the conference fees collected in FYs 2005 to 2007 and not remitting
those fees to the U.S. Treasury general fund as required. However, DHS did not violate
the Anti-Deficiency Act because appropriated funds available from those years are
sufficient to cover DHS’ remittance of the conference fees to the U.S. Treasury Account.

                                            1
 

Miscellaneous Receipts Statute

The department violated the Miscellaneous Receipts Statute (31 U.S.C. § 3302(b)) in FYs
2005 through 2007 by collecting conference fees and not remitting the fees to U.S.
Treasury General Fund as required. The Science and Technology Directorate used its
Research, Development, Acquisition and Operations appropriation to fund the cost of the
Process Control Systems Forum for FYs 2005 to 2007. The directorate charged
conference fees to cover related costs, such as hotel charges, food, and light refreshments.
Table 1 lists the amount of conference registration fees the department collected for the
Process Control Systems Forum during the 3-year period.

                                         Table 1
                                Fiscal Year      Total Fees
                                                 Collected
                                   2005           $23,370
                                   2006           $50,925
                                   2007          $137,150
                                   Total         $211,445

When the contractor collected the fees from conference attendees and used those fees to
offset conference expenses, an unauthorized augmentation of DHS’ appropriations
occurred for each of the 3 years in question.

While there are some instances in which an event planner may retain personal
convenience fees from conference attendees for meals and not violate the Miscellaneous
Receipts Statute, that is not the case here. The contractor did not collect the fees for its
own use, but on behalf of the government. Without specific statutory authority, neither
DHS nor the contractor acting on its behalf was permitted to collect conference fees from
its attendees to defray the official costs of conferences. As a result, the department
remains responsible for remitting to the Treasury the fees it inappropriately collected for
the PCSF. Officials responsible for the PCSF during FYs 2005 through 2007 are no
longer employed at DHS; however, department officials currently responsible for the
PCSF said that the previous managers may not have been aware that collecting
conference fees without statutory authority to do so was a violation of the Miscellaneous
Receipts Statute.

Anti-Deficiency Act

DHS did not violate the Anti-Deficiency Act because appropriated funds available from
those years are sufficient to cover DHS’ remittance of the conference fees to the U.S.
Treasury account. Table 2 shows the amounts available from Science and Technology’s
Research, Development, Acquisitions and Operations appropriations for the 3 years.
Because the appropriations are no-year funds, they remain available for obligation in
succeeding fiscal years until the amounts are exhausted.



                                             2
 

                                        Table 2
                                Fiscal Year    Appropriation
                                   2005        $1,046,864,000
                                   2006        $1,420,997,000
                                   2007          $838,109,000

Since the conference fees collected each year are less than the available appropriations
for each year, Science and Technology will not encounter a deficit when it remits the
total $211,445 to the Treasury.

We identified one other potential funding issue. The hotels provided receptions at night
at the conclusion of the conferences, at which food and beverages were served. If the
cost of the receptions was not included as part of a nonseparable fee for the entire
conference, and if DHS reimbursed employees not in travel status for their conference
registration fees, Science and Technology may have committed an Anti-Deficiency Act
violation. We did not determine whether Science and Technology made any such
reimbursements. However, we note the issue for any further action Science and
Technology may wish to take.

New Legislation

During the course of our audit, the DHS Appropriations Act for FY 2010, Pub. L. No.
111-83, § 554, was enacted, giving DHS the authority to collect conference fees in
advance either directly, or by contract, from nonfederal participants for the conferences,
seminars, exhibitions, or similar meetings it conducts. The fees must be credited to the
appropriation or account from which the costs of the conference are paid. When the total
amount of fees collected exceeds actual costs, the excess amount must be deposited to the
U.S. Treasury. Although DHS now has the authority to collect conference fees, the
department did not have this authority in FYs 2005 to 2007. Therefore, the department
must return all conference fees previously collected to the U.S. Treasury account.

Recommendation
We recommend that the Under Secretary for the National Protection and Programs
Directorate and the Under Secretary for the Science and Technology Directorate remit to
the U.S. Treasury Fund the $211,445 collected in conference registration fees for the
Process Control Systems Forum in FYs 2005 through 2007.


Management Comments and OIG Analysis
We obtained written comments on a draft of the report from the Under Secretary for
Science and Technology, on behalf of the department for both the National Protection
and Programs Directorate and the Science and Technology Directorate. We have
included a copy of the comments in appendix B. The Under Secretary concurred with the
recommendation.
                                             3
 

Appendix A
Purpose, Scope, and Methodology

To accomplish our audit objective, we reviewed DHS policies, procedures, and
documentation regarding managing conferences and collecting registration fees. We also
examined prior DHS, Government Accountability Office, and Department of Defense
audit reports addressing these issues. We reviewed pertinent laws and regulations;
conducted analysis related to interagency agreements, contracts, and records of receipts;
and conducted interviews with officials of DHS’ National Protection and Program
Directorate, Science and Technology Directorate, and Office of the Chief Financial
Officer. Our Office of Counsel assisted our audit by providing us with legal opinions on
the conference fees collected for the Process Control Systems Forum for the 3 years in
question.

We conducted this performance audit between March and October 2009 under the
authority of the Inspector General Act of 1978, as amended, and according to generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We appreciate the efforts by DHS management and staff to provide the information and
access necessary to accomplish this review.




                                             4
 

Appendix B
Management Comments to the Draft Letter Report




                                                                          u....,   Stn~""" "" .~_ ~ .-)l"'MoI"l{I'
                                                                          U_.... l)c,..rt_... l>f'1oMduolI SKtoricy
                                                                          "~JJC1US1'



                                                              ,8   Homeland
                                                                  ~".'-
                                                              \\.. Security
                                       June 8. 2010



    MEMORANDUM FOR,                Anne L. Richards
                                   Assistant Inspector General for Audits

    FROM,                         Ta"O'TOOle,M.D..           M.P.f1.~
                                  Under Secretary for Science and Technology
                                                                               0      'U
    SUBJECL                       Draft Leifer Report: Audil ofIhe Department ofHomeland
                                  Security's Handling ofConferellce Feesfor the Process
                                  Control Systems Forum - FOR OFFICIAL USE ONLY (FOUO)

   Thank you for the opportunity to review and comment on OIG Draft Leiter Report: Audit ofthe
   Department ofHomeland Security's Handling ofConference Fees for the Proce.u Control
   Systems Forum - FOUo. I am providing this response on behalf of the Department - for both
   the National Protection and Programs Directorale and Science and Technology Directorale. The
   Depanmenl has no comments on the content of the draft report. We agree with the
   recommendalion. The Science and Technology Directorate intends to remit $211 ,445 collected
   in conference registration fees to the U.S. Treasury Fund.

    If you have Ilny furthcr questions, please feel free to contact Leslie Tomaselli in my Office of the
    Executive Secretary. (202) 254-6714.

    Cc: Rand Beers. Under Secretary, National Protection and Programs Directorate




                                                      5
 

Appendix C
Major Contributors to this Report


             John McCoy, Director, Financial Management
             Maryann Pereira, Audit Manager
             Frank Lucas, Project Lead
             Nancy Pergolizzi, Auditor
             Jason Kim, Auditor
             James Bess, Independent Referencer




                                       6
 

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary, Management
                      DHS Audit Liaison
                      National Protection and Program Directorate, Audit Liaison
                      Science and Technology Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                           7
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
